           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       THE SOCIAL SECURITY
   ADMINISTRATION’S ELECTRONIC
      CLAIMS ANALYSIS TOOL

     January 2011   A-01-10-11010




 EVALUATION
   REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                             SOCIAL SECURITY
MEMORANDUM

Date:      January 5, 2011                                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Electronic Claims Analysis Tool (A-01-10-11010)


           OBJECTIVE

           The objective of our review was to assess the Social Security Administration’s (SSA)
           Electronic Claims Analysis Tool (eCAT) as it was being rolled out nationally to sites that
           make initial disability determinations.

           BACKGROUND
           eCAT is a Web-based application designed to document the analysis made by a
           disability adjudicator and ensure all relevant Agency policies are considered during the
                                           1
           disability adjudication process. eCAT produces a Disability Determination Explanation
           (DDE) that documents the detailed analysis and rationale for either allowing or denying
           a claim.

           SSA’s vision was to create a tool that would

               •   provide a comprehensive claim determination/decision rationale at each
                   respective adjudicative level;
               •   capture data for reuse and analysis at/between all levels of case adjudication;
               •   capture management information at each decisional step;
               •   integrate with quality initiatives;
               •   provide training efficiencies; and
               •   provide consistency and conformity in rationale format and documentation.

           After a premature release of eCAT in July 2006, the application underwent significant
           revisions. In 2007, SSA began piloting the enhanced version at the Virginia Disability

           1
             SSA provides monthly benefits to disabled individuals under Titles II and XVI of the Social Security Act
           (see the Social Security Act §§ 223 and 1611, 42 U.S.C. §§ 423 and 1382). See Appendix B for further
           details on SSA’s process for evaluating disability.
Page 2 - The Commissioner

Determination Services (DDS). 2 Over the next several years, DDS eCAT users and the
Offices of Disability Programs (ODP), Applications and Supplemental Security Income
Systems (OASSIS), Disability Determinations (ODD), and Quality Performance (OQP)
worked to further develop and enhance eCAT. While SSA’s original vision for eCAT
was to include initial claims to final appeals, the early application releases focused on
initial claims. In December 2009, SSA’s Commissioner announced eCAT’s national
                                                                                  3
rollout to all DDSs and SSA Federal units that process initial disability claims. In
July 2010, eCAT 6 was released and included integration with the Office of Disability
Adjudication and Review (ODAR). 4

As of September 30, 2010, SSA had implemented eCAT in 37 sites. 5 The Agency
continues eCAT’s gradual rollout and expects completion in May 2011. During and
after rollout, SSA provides training, guidance, and support to eCAT users. See
map below.

                                    eCAT Rollout Status by DDS




                                       eCAT scheduled to be implemented
                                       eCAT users as of September 30, 2010



To perform this review, we gathered and evaluated information on eCAT’s design and
nationwide implementation by meeting with SSA officials and staff from ODP, ODD, the
Office of Disability Systems (ODS), ODAR, and OQP.
2
 DDSs process initial and reconsideration disability determinations for SSA and are located in each of the
50 States plus the District of Columbia and Puerto Rico.
3
 SSA has 15 Federal units—3 components at the Agency’s Headquarters, 10 Disability Processing
Branches or Units (1 in each region), 1 unit in Guam, and 1 unit in the Virgin Islands.
4
    ODAR processes hearings for claimants who disagree with the DDS’ disability determination.
5
  DDSs in Alaska, Arizona, California, Colorado, Connecticut, Delaware, Florida, Georgia, Idaho, Indiana,
Kentucky, Louisiana, Maine, Maryland, Michigan, Minnesota, Montana, Nebraska, New Jersey,
North Carolina, North Dakota, Ohio, Oregon, Pennsylvania, Puerto Rico (not shown on map), Rhode
Island, Vermont, Virginia, Washington, Washington D.C., West Virginia, and Wisconsin. eCAT was also
implemented at one of the Headquarters components (the Office of Medical and Vocational Expertise)
and the Disability Processing Branches in Philadelphia, Chicago, and San Francisco, and Guam.
Page 3 - The Commissioner

We conducted site visits at the following DDSs: Hartford, Connecticut; New Castle,
Delaware; Kalamazoo and Lansing, Michigan; Raleigh, North Carolina; and Fairfax,
Virginia. We also visited the Federal Disability Processing Branch (DPB) in
San Francisco, California. We chose to visit these sites based on their experience
using eCAT, size, regional location, centralized/decentralized structure, computer
systems, and volume of claims processed. During these visits, we interviewed
administrators, supervisors, quality reviewers, information technology specialists,
disability examiners, medical consultants, and eCAT trainers to obtain information
regarding eCAT’s installation, functionality, and maintenance. Additionally, we gathered
information relating to SSA’s responsiveness to user issues and suggestions. See
Appendix C for more details on our scope and methodology.

RESULTS OF REVIEW
Our review found that SSA’s eCAT application is a useful tool in documenting the
analysis of initial disability claims. Thus far, the national rollout has generally not
disrupted the sites. However, we found the need for additional eCAT training at one
site.

eCAT BENEFITS

During our site visits, eCAT users commented that the application

      •   was a valuable training tool for newly hired examiners;
      •   produced comprehensive disability determinations and decision rationales;
      •   provided consistent uniform documentation for the disability determination;
      •   reinforced the disability determination process;
      •   streamlined the disability evaluation; and
      •   made it difficult to miss a step in the disability adjudication process.

For example, a training unit supervisor commented that because eCAT guides users
through the disability adjudication process step by step, it is easier to train new
examiners. Another user commented that eCAT clarified difficult aspects of the
disability decision and ensured inexperienced examiners did not miss a step in the
adjudication process.

In Fiscal Year 2010, DDSs processed more than 3 million initial disability claims 6 and
hired over 2,000 disability examiners, while Federal units processed more than
65,000 initial disability claims and had a net gain of 170 disability examiners. Training
new examiners to process these claims is one of the Agency’s major responsibilities.
As of September 30, 2010, 17.6 percent of all DDS disability examiners were
designated as trainees. See Appendix D for a list of hires by State and Federal unit.

6
    eCAT was used to process a subset of these claims in the 37 sites where implemented.
Page 4 - The Commissioner

Some eCAT users pointed out how other Agency components benefited from eCAT.
For example, users at one DDS reported feedback from ODAR and OQP that eCAT’s
documentation provided detailed explanations and made it easier to follow the
adjudicator’s reasoning. Furthermore, an SSA executive reported that ODAR found
eCAT cases well-documented.

Additionally, users at the DPB and DDS noted that they benefited from eCAT links to
policy sections, technical information, and other resources. Before eCAT, an
adjudicator may have used several applications as resources. One user commented
that by having resources readily available, they were able to follow SSA’s procedures
more effectively and stay current with the Agency’s policies.

SSA AND DDS COLLABORATION

We found that SSA ensured it took into account user needs by involving DDSs and
other components in the design and implementation of eCAT. Additionally, SSA
obtained feedback from users to incorporate in subsequent releases. Specifically, the
Agency
    •   created an eCAT work team; 7
    •   created an online meeting tool to communicate information to all eCAT users;
    •   held training sessions; and
    •   hosted an annual eCAT Summit for users to share ideas and suggest
        improvements. 8

Furthermore, we found that eCAT users shared information with each other. For
example, one site created an eCAT Website and shared it with other users. Other sites
prepared best practice guides and shared them.

IMPLEMENTATION AND LEARNING CURVE

Based on our site visits, we generally found that the implementation of eCAT did not
disrupt the DDSs; however, we found there was a learning curve as staff became
proficient eCAT users. Newer examiners generally had little difficulty adjusting to
eCAT. However, we found that experienced examiners had some difficulty adjusting to
eCAT because they had to learn new technology and a different business process for
documenting claims.




7
 SSA’s eCAT work team within ODP worked closely with ODD, OQP, ODS, OASSIS, and the DDSs to
develop, implement, and roll out eCAT.
8
  In September 2010, SSA held the most recent eCAT Summit. The eCAT Summit provides users a
forum to share ideas and make suggestions for future releases.
Page 5 - The Commissioner

For example, one user explained that experienced examiners initially struggled because
eCAT requires documenting every step in the adjudication process. Before eCAT,
examiners were generally not in the habit of providing the level of detailed
documentation that eCAT requires.

Additionally, eCAT was designed to assist the examiner in making the disability
determination, given the unique facts of each claim. Since eCAT is directed by the data
entered, an examiner needs to ensure he/she inputs the correct information for eCAT to
work properly. For example, if an adjudicator inputs that a claimant is working, eCAT
would guide him/her to a series of questions related to work. However, if an adjudicator
inputs that a claimant is not working, eCAT would guide him/her to another path. One
user stated that eCAT did not cause incorrect disability determinations—only human
error did.

eCAT TRAINING AND USAGE

One DDS implemented eCAT in its four offices in 2009, and SSA’s eCAT team offered
training to each of them. However, only one of the four offices received training from
the eCAT team. Although SSA prepared and provided training material, the decision
regarding how to train DDS staff was the responsibility of DDS management. 9 Offices
that had not received training from the eCAT team reported difficulties using the
application. Specifically, these offices reported that most adjudicators would make the
disability determination without using eCAT and then go back and fill in eCAT to reflect
their decision.

SSA designed eCAT to guide the adjudicator through the adjudication process—not to
be filled in after adjudication. Therefore, the untrained users were not using eCAT as
intended. Because these offices were not using eCAT as designed, the DDE did not
always reflect the disability decision’s entire rationale. Additionally, these offices
believed that they spent more time adjudicating cases. 10

We contacted SSA’s regional office, which confirmed that some offices at this DDS had
not received training from the eCAT team. ODP planned to work with the Regional
office and DDS to provide additional training in early 2011.

At the DDSs we visited, most staff members were required to adjudicate disability
claims using eCAT. Untrained staff in the eCAT sites and experienced examiners at


9
  SSA funds 100 percent of necessary DDS costs and provides training materials, or in some instances
conducts or specifies trainings, in support of the Agency’s disability programs. However, SSA is not
involved in the DDS’s management decisions—such as the method of training employees—except as
necessary and in accordance with regulations. SSA, POMS, DI 39563.200; see also 20 C.F.R.
§§ 404.1603, 404.1622, 404.1626, 416.1003 and 416.1026.
10
  SSA’s eCAT team reported that there had been no significant change in processing times at this DDS
since eCAT’s implementation.
Page 6 - The Commissioner

one DDS were not required to use eCAT. Some users suggested all DDS employees
adjudicate claims with eCAT because it was difficult to have two different business
processes to adjudicate claims.

eCAT USER SUGGESTIONS FOR FUTURE RELEASES

During our site visits, eCAT users made suggestions for improvements, such as adding
more edits and alerts to ensure entry of consistent information and integrating the
application more extensively with SSA’s systems.

Users reported that some data input was repetitious and suggested having more edits
or alerts to ensure entry of consistent information, prevent entry of conflicting
information, and reduce clerical errors. For example, there should be an alert if a
claimant is determined as working in one section of eCAT but as not working in another.

Users also reported that eCAT claims sometimes require unnecessary work to address
technical issues. When users inform SSA of these issues, the Agency creates
workarounds as temporary solutions while developing permanent solutions in
subsequent releases. In the meantime, the Agency maintains a Webpage of all
workarounds for adjudicators to reference.

We summarized all user feedback and provided it to ODP, which was either aware of or
addressing most items. Any issues ODP was not previously aware of were discussed
with users at the September 2010 eCAT Summit. In addition, the Agency rolled out
IdeaCAT, an online tool that provides users the opportunity to suggest, and take part in
selecting, future eCAT improvements. Based on importance and IdeaCAT feedback,
the eCAT team will then focus resources on implementing improvements.

OQP STUDY OF eCAT

In 2008, OQP evaluated the impact of eCAT on claims processing at one DDS. The
study found no significant change in quality for claims processed using eCAT. OQP is
conducting a new study of cases adjudicated with eCAT—as more sites have
implemented the application.

CONCLUSION

SSA’s eCAT application is generally a useful tool to document the analysis of initial
disability claims and the Agency is working to improve it further. We will continue
following eCAT’s rollout to all levels of adjudication—field office, DDS, and ODAR. 11



11
  Field offices determine whether an individual meets the non-disability criteria for benefits, such as
sufficient earnings and low income or resources. The San Francisco Regional Office is developing
FOeCAT, which will document claims in field offices.
Page 7 - The Commissioner

As the nationwide implementation proceeds, we encourage SSA to continue providing
sufficient training resources and support to eCAT users. Additionally, eCAT training
should specify that the application be used throughout the claims adjudication process.

AGENCY COMMENTS

SSA appreciated the opportunity to review our report (see Appendix E).




                                               Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – The Social Security Administration’s Processes for Evaluating Disability
             in Adults and Children

APPENDIX C – Scope and Methodology

APPENDIX D – Disability Examiner Hires in Fiscal Year 2010

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
Act      Social Security Act
C.F.R.   Code of Federal Regulations
DDE      Disability Determination Explanation
DDS      Disability Determination Services
DPB      Disability Processing Branch
eCAT     Electronic Claims Analysis Tool
EST      Extended Service Team
FY       Fiscal Year
OASSIS   Office of Applications and Supplemental Security Income Systems
ODAR     Office of Disability Adjudication and Review
ODD      Office of Disability Determinations
ODP      Office of Disability Programs
ODS      Office of Disability Systems
OMVE     Office of Medical and Vocational Expertise
OQP      Office of Quality Performance
POMS     Program Operations Manual System
RFC      Residual Functional Capacity
SGA      Substantial Gainful Activity
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                                       Appendix B

The Social Security Administration’s Processes
for Evaluating Disability in Adults and Children
Under the Social Security Act (Act), an adult is considered to be disabled if he/she is
                                                       1
unable to engage in substantial gainful activity (SGA) by reason of a medically
determinable physical or mental impairment that can be expected to result in death or
that has lasted or can be expected to last for a continuous period of not less than
12 months. 2

The Social Security Administration (SSA) has a five-step sequential process for
evaluating disability for adults, which generally follows the definition of disability in the
Act (Chart B-1). 3 The steps are followed in order. If a decision about disability can be
made at a step, the analysis stops and a decision is made. If a decision about disability
cannot be made, the adjudicator proceeds to the next step.

At Step 1 in the process, SSA generally considers whether the claimant is performing
SGA. If the claimant is performing SGA, SSA finds that he or she is not disabled,
regardless of the severity of his or her impairments. If the claimant is not performing
SGA, the claim is sent for a determination of disability at a later step of the process.
When the claim is initially developed, the adjudicator generally requests all the evidence
needed for consideration at Steps 2 through 5 of the sequential evaluation process.
The adjudication process stops when a decision regarding disability can be made at
          4
any step.




1
  20 C.F.R. §§ 404.1572 and 416.972: SGA means the performance of significant physical and/or mental
activities in work for pay or profit, or in work of a type generally performed for pay or profit. As of 2010,
"countable earnings" of employees indicate SGA and "countable income" of the self-employed is
"substantial" if the amount averages more than $1,000 per month for non-blind individuals or $1,640 for
blind individuals, SSA, POMS, DI 10501.015.
2
 The Act §§ 216(i)(1), 223(d)(1) and, 1614(a)(3), 42 U.S.C. §§ 416(i)(1), 423(d)(1) and 1382c(a)(3), see
also 20 C.F.R. §§ 404.1505 and 416.905.
3
    20 C.F.R. §§ 404.1520 and 416.920.
4
 20 C.F.R. §§ 404.900 and 416.1400. If the claimant disagrees with the Agency’s initial disability
determination, he/she can file an appeal within 60 days from the date of notice of the determination. In
most cases, there are three levels of administrative appeal: (1) reconsideration by the disability
determination services, (2) hearing by an administrative law judge, and (3) request for review by the
Appeals Council. If a claimant is still dissatisfied after exhausting administrative remedies, he or she can
appeal for a review by a Federal court.


                                                     B-1
At Step 2, SSA determines whether the claimant’s impairment—or combination of
impairments—is severe. 5 If the claimant does not have a medically determinable
impairment(s) that is severe, the claim is denied. If the claimant has a medically
determinable severe impairment(s), the Agency goes to Step 3 and looks to the Listing
of Impairments. If the severity of the impairment meets or medically equals a specific
listing and meets the duration requirement, the individual is determined to be disabled.

If the individual’s impairment does not meet or medically equal a listing, the Agency
goes to Step 4, and, if necessary, Step 5. At Step 4, the Agency determines whether
the claimant can perform any past relevant work, considering his/her residual functional
capacity (RFC) 6 and the physical and mental demands of the work he or she did. If the
claimant can perform past relevant work, the claim is denied. If the claimant cannot
perform past relevant work, SSA goes to Step 5 and determines whether the claimant
can perform any other work that exists in the national economy, considering his/her
RFC, age, education, and past work experience. If the claimant can perform any other
work, then SSA finds him/her not disabled; if the claimant cannot perform any other
                                   7
work, SSA finds him/her disabled.




5
 20 C.F.R. §§ 404.1520(c), 404.1521, 416.920(c) and 416.921: “Severe” is a term of art in SSA’s rules.
An impairment or combination of impairments is not severe if it does not significantly limit an individual’s
physical or mental ability to do basic work activities. See Social Security Ruling 85-28 (October 1985).
6
  20 C.F.R. §§ 404.1545 and 416.945: An individual’s impairment(s), and any related symptoms, such as
pain, may cause physical and mental limitations that affect what he or she can do in a work setting. The
residual functional capacity is the most the individual can still do despite these limitations. SSA assesses
residual functional capacity based on all relevant evidence in the case record.
7
  SSA has another sequential process for evaluating whether a disabled beneficiary’s disability continues.
20 C.F.R. §§ 404.1594 and 416.994. This process generally requires a showing of medical improvement
related to the ability to work, but also includes steps like the ones in the initial sequential evaluation
process.


                                                     B-2
      Chart B-1: SSA’s Five-Step Sequential Evaluation
             for Determining Disability for Adults


                        Step 1: Work Test
     Yes      Is the claimant engaging in
              substantial gainful activity?

                            No

     No             Step 2: Severity Test
              Does the claimant have a medically
              determinable severe impairment(s)?

                            Yes

  Not                Step 3: Listings Test           Yes
Disabled      Does the impairment(s) meet or               Disabled
              equal a listing?

                            No

                  Step 4: Previous Work Test
      No      Does the impairment(s) prevent the
              claimant from doing past relevant
              work?
                            Yes

                    Step 5: Other Work Test
              Does the impairment(s) prevent the
      No                                             Yes
              claimant from doing any other work
              that exists in the national economy?




                              B-3
Under the Act, an individual under age 18 is considered disabled for the purposes of
Supplemental Security Income (SSI) if he or she has a medically determinable physical
or mental impairment, which results in marked and severe functional limitations, and
which can be expected to result in death or which has lasted or can be expected to last
                                                    8
for a continuous period of not less than 12 months.

As shown in Chart B-2, SSA has a similar sequential process with three steps for
evaluating disability in children under SSI. 9 Steps 1 and 2 are the same as for adults,
with “severe” defined in terms of age-appropriate childhood functioning instead of basic
work-related activities. At Step 3, SSA determines whether the impairment(s) meets or
medically equals a listing or functionally equals the listings.


                           Chart B-2: SSA’s Three-Step Sequential Evaluation
                                 for Determining Disability for Children


                              Yes              Step 1: Work Test
                                     Is the claimant engaging in
                                     substantial gainful activity?

                                          No
                                           Step 2: Severity Test
                               No    Does the claimant have a medically
                                     determinable severe impairment(s)?

                                                   Yes
                                             Step 3: Listings Test
                   Not         No    Does the impairment(s) meet or        Yes     Disabled
                 Disabled            medically equal a listing or
                                     functionally equal the listings?




8
    The Act, § 1614(a)(3)(C), 42 U.S.C. § 1382c(a)(3)(C). See also 20 C.F.R. § 416.906.
9
    20 C.F.R. § 416.924.


                                                    B-4
                                                                       Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed the applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, policies, and procedures.

•   Researched published SSA Electronic Claims Analysis Tool (eCAT) reports and
    studies.

•   Reviewed eCAT procedures and controls.

•   Gathered and evaluated information on eCAT’s design and nationwide
    implementation by meeting with SSA officials and staff from the Offices of Disability
    Programs, Disability Determinations, Disability Systems, Disability Adjudication and
    Review, and Quality Performance.

•   Conducted site visits at the following Disability Determination Services: Hartford,
    Connecticut; New Castle, Delaware; Kalamazoo and Lansing, Michigan; Raleigh,
    North Carolina; and Fairfax, Virginia. We also visited the Federal Disability
    Processing Branch in San Francisco, California. We chose to visit these sites
    based on their experience using eCAT, size, regional location,
    centralized/decentralized structure, computer systems, and volume of claims
    processed. During these visits, we interviewed administrators, supervisors, quality
    reviewers, information technology specialists, disability examiners, medical
    consultants, and eCAT trainers to obtain information regarding eCAT’s installation,
    functionality, and maintenance. Additionally, we gathered information relating to
    SSA’s responsiveness to user issues and suggestions.

We conducted our review between May and October 2010 in Boston, Massachusetts.
The principal entities audited were the Offices of Disability Programs under the Deputy
Commissioner for Retirement and Disability Policy, Disability Determinations under the
Deputy Commissioner for Operations, and Disability Systems under the Deputy
Commissioner for Systems. We conducted our review in accordance with the Council
of the Inspectors General on Integrity and Efficiency’s Quality Standards for
Inspections.
                                                                                      Appendix D

Disability Examiner Hires in Fiscal Year 2010
Disability determination services (DDS) are State-run agencies that make disability
determinations for the Social Security Administration (SSA). At most DDSs, a disability
examiner—using SSA’s regulations, policies, and procedures—obtains the relevant
medical evidence and then, working with a medical consultant, evaluates the case and
determines whether the claimant is disabled under the Social Security Act. 1

Specifically, the DDS
•   makes timely and accurate disability determinations;
•   complies with regulations, rulings, and other written guidelines, including standards
    established by SSA, and other provisions of Federal law and regulations that apply
    to the State in performing the disability determination function;
•   provides management information needed to carry out the disability determination
    function;
•   provides organizational structure, facilities, qualified personnel, medical consultant
    services, and a quality assurance function;
•   furnishes timely reports and records;
•   submits reports of expenditures as required;
•   cooperates with audits;
•   ensures that all applicants for, and recipients of, disability benefits are treated
    equally and courteously;
•   maintains property and equipment used for disability program purposes;
•   safeguards records created in making disability determinations;
•   takes part in research and demonstration projects;
•   maintains liaison with the medical profession and organizations that may facilitate
    performing the disability determination function;
•   assists SSA in any other way the Agency determines may promote the objectives of
    effective and uniform administration; and
•   establishes cooperative working relationships with other agencies concerned with
    servicing the disabled.




1
 Medical consultants refer to physicians, psychologists, psychiatrists, optometrists, podiatrists, and
speech-language pathologists employed by the DDS. SSA, POMS, DI 24501.001.


                                                    D-1
In Fiscal Year (FY) 2010, DDSs processed more than 3 million initial disability claims
and hired over 2,000 disability examiners. SSA also established Extended Service
Teams (EST) in the Arkansas, Mississippi, Oklahoma, and Virginia DDSs. These
specialized units, although housed in these four States, are dedicated to assisting other
States in processing disability claims.
As of September 30, 2010, the DDSs and ESTs had 18,269 employees, including
9,175 disability examiners, and 17.6 percent of examiners was designated as trainees.
                                                                     2
Table D-1 lists the disability examiner additions and losses by DDS.

                         Table D-1: FY 2010 DDS Staffing by Location
                                                          Disability Examiners
                          Total
               DDS                                                                    Proportion
                          Staff      Additions      Losses      Total   Trainees
                                                                                      of Trainees
    Alabama                   435            43            35     213            57         26.8%
    Alaska                     30             4            2       14             2         14.3%
    Arizona                   292            28            21     134             7          5.2%
    Arkansas                  310            29            27     176            31         17.6%
    Arkansas EST              120             0            2       82            19         23.2%
    California              1,611           132            49     796        146            18.3%
    Colorado                  146            19            18      61            12         19.7%
    Connecticut               157            12            9       71            10         14.1%
    Delaware                   54            10            9       24             0          0.0%
    District of
                               58            11            6       30             3         10.0%
    Columbia
    Florida                 1,212           182           133     639            91         14.2%
    Georgia                   645            93            47     325            67         20.6%
    Hawaii                     59             8            1       24             7         29.2%
    Idaho                      79             6            4       36             6         16.7%
    Illinois                  589            63            28     274            75         27.4%
    Indiana                   364            66            32     193            42         21.8%
    Iowa                      157            11            2       79            11         13.9%
    Kansas                    136            34           29       65            19         29.2%
    Kentucky                  462            43           37      255            42         16.5%
    Louisiana                 333            31            37     149            24         16.1%
    Maine                      80             8            7       37             2          5.4%
    Maryland                  281            40            19     136            19         14.0%
    Massachusetts             374            53            13     189            25         13.2%
    Michigan                  684            86            18     329            79         24.0%
    Minnesota                 222            60            28     112            28         25.0%


2
    SSA, Office of Disability Programs, October 2010.


                                                    D-2
                  Table D-1: FY 2010 DDS Staffing by Location
                                              Disability Examiners
                  Total
        DDS                                                               Proportion
                  Staff     Additions   Losses      Total    Trainees
                                                                          of Trainees
Mississippi          298          78          24      159            53         33.3%
Mississippi EST       59           0           0       40            28         70.0%
Missouri             421          59          23      218            59         27.1%
Montana               57           4           2       22             0          0.0%
Nebraska              97           6           4       44             4          9.1%
Nevada               112           1           9       53             0          0.0%
New Hampshire         67           9           1       30             5         16.7%
New Jersey           363          23          10      204            44         21.6%
New Mexico           107          11           9       51            11         21.6%
New York            1,011         38          84      553            28          5.1%
North Carolina       686         117          36      348            75         21.6%
North Dakota          34           2           0       13             0          0.0%
Ohio                 700          41          62      374            29          7.8%
Oklahoma             276          76          35      152            22         14.5%
Oklahoma EST          50           0           0       42             0          0.0%
Oregon               205          30          14      110            14         12.7%
Pennsylvania         776         131          65      330            49         14.8%
Puerto Rico          174          25          10       91            10         11.0%
Rhode Island          66           6           1       29             6         20.7%
South Carolina       452          53          28      203            43         21.2%
South Dakota          48           5           2       22             5         22.7%
Tennessee            600          54          49      274            74         27.0%
Texas               1,108        136          64      578         102           17.6%
Utah                  98          14           5       45            14         31.1%
Vermont               49           7           3       17             6         35.3%
Virginia             420          89          41      203            21         10.3%
Virginia EST          95           0           1       59             7         11.9%
Washington           407          57          15      184            26         14.1%
West Virginia        254          45          18      119            25         21.0%
Wisconsin            263          32          25      159            31         19.5%
Wyoming               26           0           0        6             1         16.7%
Total              18,269      2,221      1,253      9,175      1,616           17.6%




                                        D-3
SSA has 15 Federal units—3 components at the Agency’s Headquarters, 10 Disability
Processing Branches or Units (1 in each region), 1 unit in Guam, and 1 unit in the
Virgin Islands. In FY 2010, Federal units processed more than 65,000 initial disability
claims and had a net gain of 170 disability examiners. As of September 20, 2010,
these units had 949 employees, including 635 disability examiners. Table D-2 shows
the disability examiner additions and losses in Federal units. 3

                       Table D-2: FY 2010 Federal Unit Staffing by Location
                                                              Disability Examiners
                   Unit Location            All Staff
                                                             Total         Net Additions
           Boston Region                            20                7                   3
           New York Region                          79               51                  -3
           Philadelphia Region                     108               80                  28
           Atlanta Region                          117               85                  27
           Chicago Region                          113               87                  27
           Dallas Region                            72               45                  38
           Kansas City Region                      107               75                  21
           Denver Region                            18                8                   4
           San Francisco Region                    108               76                  25
           Seattle Region                           23                7                   5
           Office of Central Operations
                                                    64               64                  -1
           (Headquarters)
           Office of Medical and
           Vocational Expertise (OMVE)              94               29                  -8
                          4
           (Headquarters)
           Office of International
                                                    18               18                   3
           Operations (Headquarters)
                   5
           Guam                                        6             2                    1
           Virgin Islands                              1              1                   0
           Total                                   949             635                  170




3
 SSA, Offices of Disability Programs, Public Service and Operations Support, Medical and Vocational
Expertise, and New York and San Francisco Regional Commissioners, October 2010.
4
 OMVE—in addition to assisting SSA and State DDSs—assists the Agency in the analysis of its disability
program to ensure the effective development, efficient implementation, and consistent application of
national disability policies and procedures.
5
  Guam has one full time disability examiner, one examiner who also serves as the supervisor, and one
reemployed annuitant who works half-time.


                                                 D-4
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      December 22, 2010                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Electronic Claims Analysis Tool” (A-01-10-11010)--INFORMATION


           Thank you for the opportunity to review the draft report. Attached is our response to the report.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




           [SSA only provided technical comments, which were incorporated in the report where
           appropriate.]
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Audit Manager

Acknowledgments

In addition to those named above:

   David Mazzola, Audit Manager

   Toni Paquette, Program Analyst

   Katie Toli, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-10-11010.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations
(OER), and Office of Technology and Resource Management (OTRM). To ensure compliance with
policies and procedures, internal controls, and professional standards, the OIG also has a comprehensive
Professional Responsibility and Quality Assurance program.
                                            Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                       Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                        Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCIG administers the Civil Monetary Penalty program.
                                    Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches,
and presentations to internal and external organizations, and responds to Congressional correspondence.
                       Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
